No.
IN THE SUPREME COURT OF THE UNITED STATES
ALEXANDER DAVIS,
PETITIONER,
- VS. UNITED STATES OF AMERICA,
RESPONDENT.
CERTIFICATE OF SERVICE
ROBERT EPSTEIN hereby certifies:
That he is a member of the Bar of the Supreme Court of the United States.
That on October 8, 2021, the petition for writ of certiorari and accompanying appendix in
the above-entitled case was deposited in a United States Post Office mail box located in
Philadelphia, Pennsylvania, with first class/priority postage prepaid, properly addressed to the
Clerk of the Supreme Court of the United States and within the time allowed for filing said
petition for writ of certiorari.
That a copy of the petition and appendix were served on the following individual at the
address shown below:
Brian H. Fletcher, Esquire
Acting Solicitor General of the United States
Room 5614 - U.S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
It is further certified that a copy was served upon Assistant United States Attorney Josh
Davison at:
Josh Davison, AUSA
United States Attorney’s Office
615 Chestnut Street, Suite 1250

Philadelphia, PA 19106
Josh.Davison@usdoj.gov
Dated this 8th day of October, 2021
/s/ Robert Epstein
ROBERT EPSTEIN
Assistant Federal Defender
Counsel of Record
BRETT G. SWEITZER
Assistant Federal Defender
Chief of Appeals
LEIGH M. SKIPPER
Chief Federal Defender
FEDERAL COMMUNITY DEFENDER OFFICE
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
Suite 540 West – The Curtis
601 Walnut Street
Philadelphia, PA 19106
(215) 928-1100
Counsel for Petitioner

